Department of Homeland Security
   Ofﬁce of Inspector General

            Compendium of Disaster Preparedness 

                        Programs 





OIG-11-88                                           June 2011
                                                              Office ofInspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                                              Homeland
                                                              Security
                                        June 6, 2011


                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

The DHS OIG, through the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), has developed an inventory of federal programs that provide disaster
preparedness assistance to individuals, states, localities, nonprofit organizations,
businesses, and other entities. It is based on a survey of CIGIE members and a review of
the General Services Administration's Catalog ofFederal Domestic Assistance.

We trust this report will result in more effective, efficient, and economical operations.
We express our appreciation to all of those who contributed to the preparation of this
report.




                                      Charles K. Edwards
                                      Acting Inspector General
Table of Contents/Abbreviations
Overview ..............................................................................................................................1
 


Disaster Preparedness Programs ..........................................................................................5 


Appendices
     Appendix A: Major Contributors to the Disaster Preparedness Compendium..........39 

     Appendix B: Report Distribution........................................... ...................................40 


Abbreviations
     ARRA     American Recovery and Reinvestment Act 

     BFRL     Building and Fire Research Laboratory 

     CFDA     Catalog of Federal Domestic Assistance 

     CIGIE    Council of the Inspectors General on Integrity and Efficiency 

     CMM      Civil Military Medicine 

     DOD      Department of Defense 

     DHS      Department of Homeland Security 

     EAS      Emergency Alert System 

     EPA      Environmental Protection Agency 

     FEMA     Federal Emergency Management Agency

     HSPD     Homeland Security Presidential Directive 

     NEHRP    National Earthquake Hazards Reduction Program 

     NFIP     National Flood Insurance Program

     NIST     National Institute of Standards and Technology 

     NOAA     National Oceanic and Atmospheric Administration 

     NORTHCOM Northern Command 

     NSF      National Science Foundation 

     NWR      NOAA Weather Radio               

     NWS      National Weather Service 

     OIG      Office of Inspector General 

     SDWA     Safe Drinking Water Act 

     USGS     United States Geological Survey

Overview
           The Department of Homeland Security (DHS), Office of Inspector
           General (OIG), through the Council of the Inspectors General on
           Integrity and Efficiency (CIGIE), developed this inventory of
           federal programs that provide disaster preparedness assistance to
           individuals, states, localities, nonprofit organizations, and
           businesses, to help ensure the preparedness of the nation to
           prevent, respond to, and recover from threatened and actual
           disasters and emergencies.

           Under Homeland Security Presidential Directive-8 (HSPD-8), the
           Secretary of the Department of Homeland Security, in coordination
           with the heads of other appropriate federal departments and
           agencies and in consultation with state and local governments, is
           charged with developing a national domestic all hazards
           preparedness goal. Federal departments and agencies must work to
           achieve this goal by:

              a) Providing for effective, efficient, and timely delivery of
                 federal preparedness assistance to state and local
                 governments; and
              b) Supporting efforts to ensure first responders are prepared to
                 respond to major events, especially prevention of and
                 response to threatened terrorist attacks.

           For the purposes of this document the term “federal preparedness
           assistance” means federal department and agency grants,
           cooperative agreements, loans, loan guarantees, training, and/or
           technical assistance. Federal preparedness assistance is intended to
           enhance preparedness, protection, response, recovery, and
           mitigation capabilities by funding such items as planning, training,
           exercises, equipment, and interoperable communications.

           The Homeland Security Exercise and Evaluation Program defines
           the preparedness mission as the range of deliberate, critical tasks,
           and activities necessary to build, sustain, and improve the
           operational capability to prevent, protect against, respond to, and
           recover from domestic incidents. Preparedness is a continuous
           process involving efforts at all levels of government and between
           government and private sector and non-governmental
           organizations to identify threats, determine vulnerabilities, and
           identify required resources. It is also the existence of plans,
           procedures, policies, training, and equipment necessary at the
           federal, state, and local level to maximize the ability to prevent,

             Compendium of Disaster Preparedness Programs

                                Page 1
                              respond to, and recover from major incidents. The term
                              “readiness” can be used interchangeably with preparedness.

                              We began compiling this inventory by reviewing the Catalog of
                              Federal Domestic Assistance (CFDA) website, 1 conducting a
                              simple search for “emergency preparedness” to develop an initial
                              inventory of financial and non-financial federal disaster
                              preparedness programs. The DHS OIG then surveyed the federal
                              Inspector General community to identify additional programs
                              which may not have been identified or may not be available
                              through the CFDA website. Through our collaborative effort we
                              were able to identify 11 agencies and departments with 128 federal
                              disaster preparedness programs. Table 1 identifies the 11 agencies
                              and departments with disaster preparedness programs and the
                              number of programs each agency or department oversees.

Table 1 – Agencies and Departments with Disaster Preparedness Programs
                Agency or Department                                  Number of Disaster
                                                                    Preparedness Programs
                                                                          Identified
Corporation for National and Community Service                                   1
Department of Agriculture                                                        2
Department of Commerce                                                          13
Department of Defense                                                            5
Department of Energy                                                             1
Department of Health and Human Services                                         22
Department of Homeland Security                                                 69
Department of the Interior                                                       2
Department of Justice                                                           2
Department of Transportation                                                     5
Environmental Protection Agency                                                  6

TOTAL                                                                           128
Source: OIG analysis of CFDA data and data provided by federal OIGs.

                              The Department of Homeland Security administers 69 of the
                              federal disaster preparedness programs, or 54% of the total number
                              of programs identified. The Department of Health and Human
                              Services and the Department of Commerce oversee a combined 35
                              programs, or 27% of all the programs. The remaining 19% of the


1
    Data search in this report is as of August 2, 2010.


                                 Compendium of Disaster Preparedness Programs

                                                      Page 2
                            programs are administered by the other 8 agencies and
                            departments.

                            Through the CFDA website we identified 12 different functional
                            areas into which the disaster preparedness programs can be
                            categorized. Table 2 lists the number of disaster preparedness
                            programs in each functional area. Some disaster preparedness
                            programs could fall in more than one functional area. For
                            example, we placed the Department of Agriculture’s Emergency
                            Conservation Program in the agriculture functional area. This
                            program could also be categorized in the areas of civil defense or
                            environmental quality. For simplification we assigned each
                            program to only one functional area.

Table 2 – Disaster Preparedness Programs by Functional Area
                    Functional Area                                  Number of Disaster
                                                                   Preparedness Programs
Science, Technology and Education                                                9
Agriculture                                                                      2
Community Preparedness/Natural Disasters                                        31
Economic Development                                                             3
Hazard Mitigation Assistance                                                     9
Public Health                                                                   15
Civil Defense, Terrorism and Manmade Disasters                                  29
Transportation and Infrastructure                                                6
Workforce Development                                                            5
Communications                                                                   6
Environmental Quality                                                            3
Training                                                                        10
Source: OIG analysis of CFDA data and data provided by federal OIGs.

                            We anticipate that this inventory of programs will be used by the
                            Inspector General community, federal departments and agencies,
                            state and local governments and individuals as a means to become
                            more aware of federal disaster preparedness programs.

                            We compiled this information under the authority of the Inspector
                            General Act of 1978, as amended. We provided CIGIE members
                            with the opportunity to verify the information in this compendium,
                            and we have incorporated their comments where appropriate. 2


2
    As agreed upon with CIGIE, we performed this work as a non-audit service.


                               Compendium of Disaster Preparedness Programs

                                                   Page 3
In April 2009, DHS OIG, in collaboration with the CIGIE,
compiled a Compendium of Disaster Assistance Programs (OIG­
08-49). Because preparedness overlaps with response and
recovery, some preparedness programs listed here are also
identified in the Compendium of Disaster Assistance Programs.




  Compendium of Disaster Preparedness Programs 


                     Page 4 

Disaster Preparedness Programs 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   For over fifteen years, the Corporation for
                                                   National and Community Service—through
                                                   its Senior Corps, AmeriCorps, and Learn and
                                                   Serve America programs—has mobilized a
                        Learn and Serve            new generation of engaged citizens. Learn and
Corporation for
                       America Innovative          Serve America grants provide support to
 National and
                       Community-Based             organizations that involve young people in                       94.018
 Community
                        Service-Learning           service-learning projects that simultaneously
   Service
                           Programs                support student development and meet
                                                   community needs in areas such as the
                                                   environment, education, public safety, and
                                                   other human needs.
                                          To enable farmers to perform emergency
                                          conservation measures to control wind erosion
 Department of                            on farmlands, to rehabilitate farmlands damaged
  Agriculture,           Emergency        by wind erosion, floods, hurricanes, or
                                                                                                                   *10.054
 Farm Service        Conservation Program other natural disasters and to carry out
   Agency                                 emergency water conservation or water
                                          enhancing measures during periods of severe
                                          drought.
                                          To help people improve their lives and
                                          communities through an educational process
 Department of                            that uses scientific knowledge focused on issues
  Agriculture,                            critical to the economic, agricultural, societal,
   National              Cooperative      health/safety, and environmental progress of all
                                          Americans, identify and solve their farm, home,                          *10.500
  Institute of        Extension Service
   Food and                               and community problems through the practical
  Agriculture                             application of research findings of the
                                          Department of Agriculture and the land-grant
                                          colleges and universities.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 5 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   To assist various organizations identified by
Department of                                      Congress to achieve objectives specified
 Commerce,                                         by Congress. Examples of funded projects
   National                                        include: School Safety and Preparedness; School
                         Congressionally-
 Institute of                                      of Public Health Construction; Museum of                         11.617
                        Identified Projects
Standards and                                      Science-Program for Technological Literacy;
 Technology                                        and Bio-commodity Engineering Research
   (NIST)                                          Initiative.

                                                   Through the Collaborative Science, Technology,
                                                   and Applied Research program, NOAA/National
                                                   Weather Service (NWS) provides funding to the
                                                   university community for highly collaborative
Department of                                      applied research hydro-meteorological activities
 Commerce,                                         to create a cost-effective transition from
  National                  Applied                basic and applied research to operations and
 Oceanic and              Meteorological           services. The Remote Community Alert                             11.468
 Atmospheric                Research               Systems Program represents an effort to provide
Administration                                     for outdoor alerting technologies in remote
  (NOAA)                                           communities effectively underserved by
                                                   commercial mobile service for the purpose of
                                                   enabling residents of those communities to
                                                   receive emergency messages.
                                         To address the needs of distressed communities
                                         experiencing adverse economic changes that
                                         may occur suddenly or over time, and generally
Department of                            result from industrial or corporate restructuring,
 Commerce,                               new Federal laws or requirements, reduction in
                     Economic Adjustment
  Economic                               defense expenditures, depletion of natural                                *11.307
                          Assistance
Development                              resources, or natural disaster. Economic
Administration                           Adjustment Assistance grants are intended to
                                         enhance a distressed community's ability to
                                         compete economically by stimulating private
                                         investment in targeted areas.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 6 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   The objective of the Automated Flood Warning
Department of                                      Systems Program is to provide funding to
                        National Weather
 Commerce,                                         communities with flood or flash flood problems
                         Service Eastern
  National                                         that affect safety of life and property to assist
                        Region Automated                                                                           *11.450
 Oceanic and                                       them in creating, renovating, or enhancing
                         Flood Warning
 Atmospheric                                       Automated Flood Warning Systems.
                            Systems
Administration
                                                   An on-line tool that provides a live feed from the
                                                   National Hurricane Center. When a storm’s
                                                   leading winds make landfall, the application will
                                                   allow users to view the relationship between
                          Census Data &            where people work and where they live,
Department of
                            Emergency              characteristics of the local workforce, such as the                 #
 Commerce
                           Preparedness            affected industries, the ages of workers and
                                                   workers’ earnings with a simple click of the link.
                                                   It allows users to create, print and download
                                                   workforce related maps, profiles and underlying
                                                   data down to the block level.
                                                   NIST is required by statute (PL 108-360) to
                        Building and Fire          develop and maintain "a repository of
                       Research Laboratory         information, including technical data, on seismic
                        (BFRL), National           risk and hazards reduction." The NEHRP
                       Earthquake Hazards          Clearinghouse will facilitate the integration of
                       Reduction Program           National Science Foundation (NSF), United
Department of
                         Administration            States Geological Survey (USGS), Federal                            #
 Commerce
                      (NEHRP), Computer-           Emergency Management Agency (FEMA), and
                      Based Clearinghouse          NIST-funded earthquake-related research into
                          for Retrieving           building code provisions and earthquake hazard
                         NEHRP-Funded              mitigation strategies, thereby reducing the life-
                      Earthquake Research          cycle costs of achieving target levels of
                                                   earthquake protection.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 7 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   This project benchmarks performance-based
                         BFRL Project:             seismic design methods that are promulgated for
                       Assessment of First         existing buildings in American Society of Civil
                           Generation              Engineers 41[1] for their application to new
Department of
                       Performance-Based           buildings designed per the American Society of                      #
 Commerce
                         Seismic Design            Civil Engineers 7[2]. Both structural steel and
                        Methods for New            reinforced concrete building structures will be
                            Buildings              investigated.
                                                   Tsunami Ready helps community leaders and
                        National Tsunami           emergency managers strengthen their local
Department of
                        Preparedness and           operations. Tsunami Ready communities are                           #
 Commerce
                       Response Programs           better prepared to save lives through better
                                                   planning, education and awareness.
                                                   An on-line tool that provides basic hurricane
Department of               Hurricane              safety actions, information for actions to take                     #
 Commerce                  Preparedness            based on specific hurricane hazards.

                                                   The Office of Response and Restoration
                                                   addresses and evaluates coastal contamination,
Department of
                      Emergency Response           works with communities to address critical local                    #
 Commerce
                                                   and regional coastal challenges, and restores and
                                                   monitors coastal and estuarine habitat.
                                                   EAS sends out alerts to broadcast media and also
                                                   to cable television, satellites, pagers, Direct
                                                   Broadcast Satellite, High Definition Television,
Department of            Emergency Alert           and Video Dial Tone. EAS also accounts for the
                                                                                                                       #
 Commerce                 System (EAS)             needs of special populations such as the deaf and
                                                   those with special language requirements. In
                                                   1996, EAS replaced the Emergency Broadcast
                                                   System.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 8 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   The NOAA Coastal Services Center works with
                                                   various branches of NOAA and other federal
                                                   agencies to bring information, services, and
                                                   technology to the nation's coastal resource
                                                   managers. The Center is a partner in over 100
                                                   ongoing projects geared to site-specific coastal
Department of         Remote Sensing for
                                                   issues. Remote Sensing for Coastal                                  #
 Commerce             Coastal Management
                                                   Management has airborne sensors, shipboard
                                                   sensors, moderate resolution satellites, and high
                                                   resolution satellites that are used for fire
                                                   detection and mapping, law enforcement search
                                                   and rescue, emergency response planning,
                                                   evacuation routing and updating.
                                                   NOAA Weather Radio (NWR) All Hazards is a
                                                   nationwide network of radio stations
                                                   broadcasting continuous weather information
                                                   directly from the nearest National Weather
                                                   Service office. NWR broadcasts official
                                                   Weather Service warnings, watches, forecasts
                                                   and other hazard information 24 hours a day, 7
Department of            NOAA Weather
                                                   days a week. In conjunction with Federal, State,                    #
 Commerce               Radio All Hazards
                                                   and Local Emergency Managers and other public
                                                   officials, NWR also broadcasts warning and
                                                   post-event information for all types of hazards –
                                                   including natural (such as earthquakes or
                                                   avalanches), environmental (such as chemical
                                                   releases or oil spills), and public safety (such as
                                                   AMBER alerts or 911 telephone outages).
Department of                                      To promote appropriate recognition of flood
    Defense                                        hazards in land and water use planning
                          Flood Plain              and development through the provision of flood
(DOD), Office                                                                                                      *12.104
                      Management Services          and flood plain related data, technical services,
of the Chief of
  Engineers                                        and guidance.

Department of                                      To reduce flood damages through projects not
Defense, Office           Flood Control            specifically authorized by Congress.
                                                                                                                    12.106
of the Chief of              Projects
  Engineers
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.



                                        Compendium of Disaster Preparedness Programs

                                                            Page 9
 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   Facilitated by the National Guard Bureau and
                                                   NORTHCOM, Vigilant Guard is a federally
                                                   funded program through the U.S. Department of
                                                   Homeland Security that requires states to
                                                   conduct exercises to improve preparedness for
                                                   emergency and disaster response. Vigilant
                                                   Guard affords an opportunity to test skills that
                                                   enable the National Guard participants and
 Department of
                                                   emergency responders to be better prepared, to
 Defense, U.S.
                          Vigilant Guard           address shortfalls in policy, personnel and
   Northern                                                                                                            #
                            Exercises              resources and to make productive changes. It
  Command
                                                   enables participants to work together and forge
(NORTHCOM)
                                                   relationships with regional emergency response
                                                   partners, experience the strengths and
                                                   effectiveness of their plans and procedures and
                                                   to receive valuable feedback from evaluators and
                                                   other participants in post-exercise reviews.
                                                   Evaluation includes a post-exercise report with
                                                   detailed recommendations for improvement and
                                                   guidance for future events.
                                                   Civil-Military Medicine (CMM) develops
                                                   policies and oversees programs concerning
                                                   Military Health System response to disasters;
                                                   public health emergencies and mass casualty
                                                   events involving military personnel, DOD
                                                   employees and DOD beneficiaries; as well as
                                                   military support for civilian authorities and the
Department of                                      general public. CMM coordinates the Military
   Defense,                                        Health Systems leadership role within the
                          Civil-Military
 Force Health                                      federally-sponsored National Disaster Medical                       #
                            Medicine
Protection and                                     System to provide response teams, patient
  Readiness                                        transport and definitive hospital care during
                                                   mass casualty events. The Military Health
                                                   System, guided by CMM, also is a key partner in
                                                   the National Response Framework, providing
                                                   significant health and medical support to other
                                                   federal agencies during nationally-declared
                                                   disasters.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.



                                        Compendium of Disaster Preparedness Programs

                                                            Page 10
 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   The Seminar on Transatlantic Civil Security
                                                   provides civil security professionals from
                                                   Europe, Eurasia and North America an in-depth
                                                   look at how nations can effectively address
                           Seminar on              domestic security issues that have regional and
Department of
                        Transatlantic Civil        international impact. The three-week seminar                        #
  Defense
                            Security               examines best practices for ensuring civil
                                                   security and preventing, preparing for and
                                                   managing the consequences of domestic and
                                                   regional crises and disasters.
                                              To enlist cooperation among the Tribal and the
                           Transport of       Southern, Western, Northeast, and Midwest state
                      Transuranic Wastes to governments along the Waste Isolation Pilot
Department of          the Waste Isolation    Plant shipping corridors in developing plans and
                                                                                                                    81.106
   Energy             Pilot Plant: States and procedures for the safe and uneventful
                         Tribal Concerns,     transportation of transuranic waste from current
                       Proposed Solutions     temporary storage facilities to the Waste
                                              Isolation Pilot Plant.
                                                   To bring public health and epidemiologic
                                                   principles together to identify, clarify, and
                                                   reduce the impact of complex environmental
                                                   threats, including terrorist threats and natural
Department of                                      disasters, on populations, domestic and foreign.
 Health and                                        These programs and activities focus on
                      Environmental Public
   Human                                           safeguarding the health of people from
                           Health and                                                                               93.007
  Services,                                        environmental threats; providing leadership in
                      Emergency Response
Office of the                                      the use of environmental health sciences­
  Secretary                                        including environmental epidemiology,
                                                   environmental sanitation, and laboratory
                                                   sciences-to protect public health; and responding
                                                   to issues and sharing solutions to environmental
                                                   health problems worldwide.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 11 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   To support the development of Medical Reserve
Department of
                                                   Corps units in communities throughout the
 Health and
                         Medical Reserve           United States to: (1) increase capacity at the
   Human
                        Corps Small Grant          community level to respond during emergencies                    93.008
  Services,
                            Program                which have medical consequences, and (2)
Office of the
                                                   improve public health in communities through
  Secretary
                                                   volunteerism on an ongoing basis.
                                                   To promote and maintain a collaborative
                                                   relationship with the Association of
                                                   Public Health Laboratories that includes the
                                                   National Laboratory Training Network and the
                                                   National Laboratory Partnership for the purpose
Department of              Laboratory              of: (1) improving public health laboratory
 Health and                Leadership,             infrastructure; (2) maintaining a competent and
   Human               Workforce Training          trained laboratory workforce; (3) promoting
  Services,             and Management             laboratory leadership activities to ensure future
                                                                                                                    93.065
 Centers for             Development,              laboratory leaders; (4) ensuring laboratory
  Disease               Improving Public           preparedness for emerging infectious diseases or
 Control and           Health Laboratory           other biologic and chemical public health
 Prevention               Infrastructure           threats; (5) promoting technology transfer to
                                                   ensure up-to-date technologies for the testing
                                                   laboratory; and (6) enhancing communication
                                                   linkages between state and local public health
                                                   laboratories, and the clinical laboratory testing
                                                   community.
                                                   To develop emergency-ready public health
                                                   departments by upgrading, integrating
Department of                                      and evaluating State and local public health
 Health and                                        jurisdictions’ preparedness for and response
   Human                                           to terrorism, pandemic influenza, and other
                           Public Health           public health emergencies with Federal,
  Services,
                            Emergency              State, local, and tribal governments, the private                93.069
 Centers for
                           Preparedness            sector, and non-governmental organizations.
  Disease
 Control and                                       These emergency preparedness and response
 Prevention                                        efforts are intended to support the National
                                                   Response Plan and the National Incident
                                                   Management System.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs

                                                            Page 12
Department /              Program Title                                   Objectives                              Program
  Agency                                                                                                          Number
Department of                                      To assist States and communities in establishing
 Health and                                        and maintaining preventive health service
   Human                                           programs to immunize individuals against
  Services,                                        vaccine-preventable diseases (including measles,
                      Immunization Grants          rubella, poliomyelitis, diphtheria, pertussis,                   93.268
 Centers for
  Disease                                          tetanus, hepatitis B, hepatitis A, varicella,
 Control and                                       mumps, haemophilus influenza type b, influenza,
 Prevention                                        and pneumococcal pneumonia).
                                                   To bring public health and epidemiologic
                                                   principles to the aid of populations affected
                                                   by complex humanitarian emergencies. Work
                                                   will focus on the following main program areas:
                                                   (1) providing technical assistance including
                                                   rapid health and nutrition assessments,
                                                   public health surveillance, epidemic
                                                   investigations, disease prevention and control,
Department of                                      program evaluation and emergency
 Health and                                        preparedness; (2) developing, implementing and
                            Complex
   Human                                           disseminating findings from operational research
                         Humanitarian
  Services,                                        projects aimed at developing more effective
                      Emergency and War-                                                                            93.269
 Centers for                                       public health interventions; (3) designing,
                      Related Injury Public
  Disease                                          implementing, and evaluating training activities
                       Health Activities
 Control and                                       to strengthen the capacity of the Center for
 Prevention                                        Disease Control, other U.S. government
                                                   agencies, international and private voluntary
                                                   organizations, other governments, and public
                                                   health students; (4) developing
                                                   and disseminating guidelines on public health
                                                   issues and technical areas; and (5) planning
                                                   and maintaining partnerships with strategic
                                                   international, bilateral, and non­
                                                   governmental relief organizations.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 13 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   The ARRA appropriated $300 million to
Department of                                      the Section 317 Immunization program (Section
 Health and                                        317) which funds 64 immunization programs
   Human               American Recovery           that include all 50 states, Washington DC, 5
  Services,           and Reinvestment Act         urban areas, the U.S. Territories, and
                                                   selected Pacific Island nations. Funding                         93.712
 Centers for                (ARRA) ­
  Disease                 Immunization             supports states and communities in establishing
 Control and                                       and maintaining preventive health service
 Prevention                                        programs to immunize individuals
                                                   against vaccine-preventable diseases.
                                           This funding was appropriated under ARRA.
Department of                              The funds are intended to reduce
 Health and                                preventable healthcare-associated infections
   Human                                   through State health department efforts to
                      ARRA - Preventing
  Services,                                prevent Healthcare Associated
                     Healthcare-Associated                                                                          93.717
 Centers for                               Infections including leveraging the National
                           Infections
  Disease                                  Health Care Safety Network to support the
 Control and                               dissemination of the Department of Health and
 Prevention                                Human Services evidence-based practices within
                                           hospitals ($40 million).
                                           To complement, develop and improve State,
Department of                              Tribal, and local food safety and security testing
  Health and                               programs through the provision of supplies,
                        Food Safety and
   Human                                   personnel, facility upgrades, training in current
                      Security Monitoring                                                                           93.448
Services, Food                             food testing methodologies and participation in
                             Project
  and Drug                                 proficiency testing to establish additional
Administration                             reliable laboratory sample analysis capacity and
                                           analysis of surveillance samples.
Department of                              To assist in an increased surveillance presence
  Health and                               throughout the commercial feed channels to
   Human              Ruminant Feed Ban prevent the introduction or amplification of
                                           Bovine Spongiform Encephalopathy in the                                  93.449
Services, Food          Support Project
  and Drug                                 United States.
Administration
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 14 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   To support demonstration projects for the
Department of                                      expansion and improvement of emergency
 Health and                                        medical services for children who need treatment
   Human
                                                   for trauma or critical care.
  Services,           Emergency Medical
                                                                                                                    93.127
   Health             Services for Children
Resources and
  Services
Administration
                                                   To support demonstration projects for the
Department of                                      expansion and improvement of emergency
 Health and                                        medical services for children who need treatment
   Human                                           for trauma or critical care, as funded under
                      ARRA - Emergency
  Services,                                        ARRA 2009.
                      Medical Services for                                                                          93.418
   Health
                           Children
Resources and
  Services
Administration
                                                   To administer grants to States and Territories for
Department of
                                                   the purpose of developing, implementing, and
 Health and
                                                   improving State-wide trauma care systems.
   Human
                      Trauma Care Systems
  Services,
                          Planning and                                                                              93.952
   Health
                          Development
Resources and
  Services
Administration
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 15 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                           To develop a health care workforce with the
                                           knowledge, skills, abilities and core
                                           competencies to: (1) recognize indications of a
                                           terrorist event; (2) meet the acute care needs of
                                           patients in a safe and appropriate manner; (3)
Department of
                                           participate in a coordinated, multidisciplinary
 Health and
                                           response to terrorist events and other public
   Human
                     Bioterrorism Training health emergencies, and include consideration of
  Services,
                        and Curriculum     surge capacity issues; and (4) rapidly and                               93.996
   Health
                     Development Program effectively alert the public health system of such
Resources and
                                           an event at the community, State, and national
  Services
                                           level. The Bioterrorism Training and
Administration
                                           Curriculum Development Program consists of
                                           two discrete foci of activity: (1) Provision of
                                           Continuing Education for Practicing Providers;
                                           and (2) Curriculum Development in
                                           Health Professions Schools.
Department of                              To provide supplemental funding for public
 Health and                                health and social service emergencies.
                       Public Health and
   Human
                        Social Services                                                                            *93.003
  Services,
                       Emergency Fund
Office of the
  Secretary
                                            Establish and maintain a national interoperable
Department of                               network of state systems. Each system
                       Emergency System
 Health and                                 is maintained by a State or group of States for
                          for Advance
   Human                                    the purpose of verifying the credentials,
                         Registration of                                                                            93.089
  Services,                                 certifications, licenses, relevant training, and
                        Volunteer Health
Office of the                               hospital privileges of health care professionals
                          Professionals
  Secretary                                 who volunteer to provide health services during
                                            a public health emergency.
Department of                               To ready hospitals and other healthcare systems,
 Health and                                 in collaboration with other partners, to deliver
                      National Bioterrorism
   Human                                    coordinated and effective care to victims of
                      Hospital Preparedness                                                                        *93.889
  Services,                                 terrorism and other public health emergencies.
                            Program
Office of the
  Secretary
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs

                                                            Page 16
Department /              Program Title                                   Objectives                              Program
  Agency                                                                                                          Number
Department of                                      To assist State health departments in developing
 Health and                                        a State-based surveillance system for monitoring
   Human                                           hazardous substance emergency events. This
  Services,             Surveillance of            surveillance system will allow the State health
 Agency for           Hazardous Substance          department to better understand the public health                93.204
    Toxic              Emergency Events            impact of hazardous substance emergencies by
Substance and                                      developing, implementing, and evaluating a
   Disease                                         State-based surveillance system.
  Registry
                                                   To provide for expanded and sustained national
                       The Affordable Care         investment in prevention and public health
                           Act: Building           programs to improve health and help restrain the
                          Epidemiology,            rate of growth in private and public sector health
Department of
                          Laboratory, and          care costs. The programs play a critical role in
 Health and
                        Health Information         strengthening national infectious disease
   Human
                       Systems Capacity in         infrastructure by serving as collaborative
  Services,
                      the Epidemiology and         platforms for state and local health departments,                93.521
 Centers for
                       Laboratory Capacity         Centers for Disease Control and Prevention
  Disease
                      for Infectious Disease       programs, and academic and various other public
 Control and
                           and Emerging            health partners to improve the ability to detect
 Prevention
                        Infections Program         and respond to emerging infectious diseases and
                            Cooperative            other public health threats.
                            Agreement
                                            This program will help State, tribal, local and
Department of                               U.S. territorial health departments by making
 Health and           The Affordable Care available to them capacity building assistance.
   Human                 Act: Capacity      The overall goal of capacity building assistance
  Services,          Building Assistance to is to ensure improvements in the public health
                                            infrastructure so that it is prepared for                               93.524
 Centers for           Strengthen Public
  Disease             Health Infrastructure responding to both acute and chronic threats
 Control and           and Performance      relating to the Nation’s health such as emerging
 Prevention                                 infections, disparities in health status, and
                                            increases in chronic disease and injury rates.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 17 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   To improve health information services by
                                                   providing funds to train professional personnel;
                                                   to conduct research in biomedical informatics,
Department of                                      bioinformatics and related computer and
 Health and                                        information sciences; to facilitate management
   Human                                           of electronic health science information; to plan,
                         Medical Library
  Services,                                        develop and test feasibility of advanced                         93.879
                           Assistance
  National                                         information tools through Small Business
 Institute of                                      Research Innovation and Small Business
   Health                                          Technology Transfer grants. Areas of research
                                                   interest include: informatics topics relevant to
                                                   public health and informatics for disaster
                                                   management.
Department of                                      To provide supplemental emergency mental
 Health and                                        health counseling to individuals affected by
   Human                                           major disasters, including the training of workers
                         Mental Health
  Services,                                        to provide such counseling.
                       Disaster Assistance
  Substance                                                                                                        *93.982
                        and Emergency
 Abuse and
                         Mental Health
Mental Health
   Services
Administration
                                                   Cooperative agreements are awarded to eligible
                                                   applicants to design, develop, and
Department of           State and Local            deliver training content and support for Federal,
 Homeland              Homeland Security           State, local, and tribal jurisdictions in accordance             97.005
  Security             Training Program            with FEMA doctrine and approved Homeland
                                                   Security Strategies.

                                                   To provide direct assistance to State, regional,
                       Homeland Security           local and tribal jurisdictions as well as other
Department of
                         Preparedness              homeland security organizations, to improve
 Homeland                                                                                                          *97.007
                      Technical Assistance         their ability to prevent, protect against, respond
  Security
                           Program                 to, and recover from major events, including
                                                   threats or acts of terrorism.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 18 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   To support the unique multi-discipline planning,
                                                   operations, equipment, training, and exercise
Department of                                      needs of high threat, high density Urban Areas,
                      Urban Areas Security
 Homeland                                          and to assist them in building and sustaining                   *97.008
                           Initiative
  Security                                         capabilities to prevent, protect against, respond
                                                   to, and recover from threats or acts of terrorism.

Department of             National Fire            To provide travel stipends to students attending
 Homeland               Academy Training           Academy courses.                                                 97.018
  Security                 Assistance
                                                   To provide professional development experience
Department of            National Fire             for fire service authorities who have
 Homeland             Academy Educational          demonstrated significant leadership                              97.019
  Security                 Program                 accomplishment.
                                                   To support States, local and tribal governments
                                                   in oil and hazardous materials emergency
                                                   planning and exercises and enhance their
Department of                                      capabilities to interact with the National
                      Hazardous Materials          Response System; through the States, provide
 Homeland                                                                                                          *97.021
                      Assistance Program           technical and financial assistance to support
  Security
                                                   activities under the Comprehensive Hazardous
                                                   Materials Emergency Response - Capability
                                                   Assessment Program.
                                            The purpose of this program is to provide,
                                            through a State grant mechanism, a means to
                                            ensure that communities participating in the
                                            National Flood Insurance Program (NFIP)
                                            are achieving flood loss reduction goals of the
                           Community        NFIP. Community Assistance Program-State
Department of
                      Assistance Program Support Services Element funds are to be used
 Homeland                                                                                                          *97.023
                     State Support Services by States to provide technical assistance to NFIP
  Security
                            Element         communities, to evaluate community
                                            implementation/performance of NFIP floodplain
                                            management activities, and to build State and
                                            community floodplain management expertise
                                            and capacity.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.



                                        Compendium of Disaster Preparedness Programs

                                                            Page 19
 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   To supplement and expand ongoing efforts to
                                                   provide shelter, food, and supportive services for
                                                   needy families and individuals. To strengthen
                                                   efforts to create more effective and innovative
Department of         Emergency Food and           local programs by providing supplemental
 Homeland               Shelter National           funding for them. To conduct minimum                            *97.024
  Security              Board Program              rehabilitation of existing mass shelter or mass
                                                   feeding facilities, but only to the extent
                                                   necessary to make facilities safe, sanitary and
                                                   bring them into compliance with local building
                                                   codes.
                                                   Develop, maintain, deploy, coordinate, and
                                                   support National Urban Search and
                                                   Rescue resources on-scene to locate, provide
Department of            National Urban            initial medical treatment, and extricate victims
 Homeland               Search and Rescue          of incidents requiring specialized search and                   *97.025
  Security              Response System            rescue operations while simultaneously
                                                   enhancing the Urban Search and Rescue
                                                   response capabilities of State and local
                                                   governments.
                                                   To defray travel and per diem expenses of State,
                                                   local, and tribal emergency management
                                                   personnel who attend training courses conducted
                                                   by the Emergency Management Institute, at the
Department of             Emergency                Emmitsburg, Maryland facility; Nobel Training
 Homeland             Management Institute         Center at the Center for Domestic Preparedness                  *97.026
  Security            Training Assistance          in Anniston, Alabama; and selected off-site
                                                   locations. Its purpose is to improve emergency
                                                   management practices among State, local, and
                                                   tribal government managers, in response to
                                                   emergencies and disasters.
                                                   The program currently consists of 84 courses
                                                   available to participants, with the objective of
                          Emergency
Department of                                      enhancing public and selected audience
                      Management Institute
 Homeland                                          knowledge of emergency management practices                     *97.027
                       Independent Study
  Security                                         among officials of Federal, State, local, and
                            Program
                                                   tribal governments and voluntary organizations
                                                   in response to emergencies and disasters.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.



                                        Compendium of Disaster Preparedness Programs

                                                            Page 20
 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                          To improve emergency management practices
                                          among State, local and tribal government
                                          managers, and Federal officials in response to
                          Emergency
Department of                             emergencies and disasters. Programs embody
                     Management Institute
 Homeland                                 the Comprehensive Emergency Management                                   *97.028
                     Resident Educational
  Security                                System by unifying the elements of management
                           Program
                                          common to all emergencies: planning,
                                          preparedness, mitigation, response,
                                          and recovery.
                                          To provide States and local governments
                                          financial assistance to implement measures
Department of                             that will permanently reduce or eliminate future
                       Hazard Mitigation
 Homeland                                 damages and losses from natural hazards through                          *97.039
                             Grant
  Security                                safer building practices and improving existing
                                          structures and supporting infrastructure.
                                          To enhance emergency preparedness capabilities
                                          of the States, local, and tribal communities at
                                          each of the six chemical agent stockpile storage
Department of         Chemical Stockpile
                                          facilities. The purpose of the program is to assist
 Homeland                 Emergency                                                                                *97.040
                                          States and local communities in efforts to
  Security           Preparedness Program
                                          improve their capacity to plan for and respond to
                                          accidents associated with the storage and
                                          ultimate disposal of chemical warfare materials.
                                          To support State governments and the
                                          Commonwealth of Puerto Rico in the
                                          development and maintenance of dam safety
                                          programs. To enable States and the
Department of                             Commonwealth of Puerto Rico to take
                     National Dam Safety
 Homeland                                 precautions that ensure the safety of the dams,                          *97.041
                           Program
  Security                                such as the development of regulatory authority
                                          for the design, construction, operation, and
                                          maintenance of dams, the undertaking of dam
                                          inspections, and development of Emergency
                                          Action Plans for dams.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 21 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   To provide resources to assist State and local
                                                   governments to sustain and enhance all-hazards
                                                   emergency management capabilities. All-
                                                   hazards approach to emergency
                                                   response, including the development of a
                                                   comprehensive program, planning, training,
                                                   exercises, sets the stage for an effective and
Department of              Emergency
                                                   consistent response to any threatened or actual
 Homeland                 Management                                                                               *97.042
                                                   disaster or emergency, regardless of the cause.
  Security             Performance Grants
                                                   States have the opportunity to use Emergency
                                                   Management Performance Grant funds to further
                                                   strengthen their ability to support emergency
                                                   management activities while simultaneously
                                                   addressing issues of national concern as
                                                   identified in the National Priorities of the
                                                   National Preparedness Guidelines.
                                                   To provide financial assistance to State Fire
Department of                                      Training Systems for the delivery of a variety of
                        State Fire Training
 Homeland                                          National Fire Academy courses/programs,                          97.043
                         Systems Grants
  Security                                         administrative costs, and electronic student
                                                   feedback.
                                                   To provide financial assistance directly to fire
                                                   departments and nonaffiliated Emergency
                                                   Medical Support organizations to enhance their
                                                   capabilities with respect to fire and fire-related
                                                   hazards. To help fire departments and
Department of                                      nonaffiliated Emergency Medical Service
                          Assistance to
 Homeland                                          organizations meet their firefighting                            97.044
                        Firefighters Grant
  Security                                         and emergency response needs. To support
                                                   organizations that lack the tools and
                                                   resources necessary to more effectively protect
                                                   the health and safety of the public and
                                                   their emergency response personnel with respect
                                                   to fire and all other hazards.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 22 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   To increase local involvement in, and ownership
                                                   of, the production development and maintenance
                                                   of Digital Flood Insurance Rate Maps, flood
                                                   hazard maps produced for the NFIP. To build
Department of
                          Cooperating              and maintain partner capabilities, continue to
 Homeland                                                                                                          *97.045
                        Technical Partners         increase local ownership of data and processes,
  Security
                                                   establish sound performance criteria for current
                                                   Cooperating Technical Partners, and to define
                                                   a career path for potential cooperating technical
                                                   partners to join the program.
                                                   Provide funding support to states, tribes,
Department of                                      territories, communities, and public colleges and
                           Pre-Disaster
 Homeland                                          universities for pre-disaster mitigation planning               *97.047
                            Mitigation
  Security                                         and projects primarily addressing natural
                                                   hazards.
                                                   The purpose of the Emergency Operations
                                                   Center Grant Program is to improve emergency
                                                   management and preparedness capabilities by
                                                   supporting flexible, sustainable, secure, and
                                                   interoperable emergency operations centers with
                                                   a focus on addressing identified deficiencies
                                                   and needs. This program provides funding for
Department of
                          Emergency                construction or renovation of a state, local
 Homeland                                                                                                          *97.052
                       Operations Centers          or tribal government's principal emergency
  Security
                                                   operations center. Fully capable emergency
                                                   operations facilities at the state and local levels
                                                   are an essential element of a comprehensive
                                                   national emergency management system and are
                                                   necessary to ensure continuity of operations and
                                                   continuity of government in major disasters
                                                   cause by any hazard.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 23 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   To bring together government and community
                                                   leaders and involve citizens in all-hazards
                                                   emergency preparedness and resilience. Citizen
Department of                                      Corp strives to harness the power of every
 Homeland                  Citizen Corps           individual through education, training, and                     *97.053
  Security                                         volunteer service to make communities
                                                   safer, stronger, and better prepared to respond to
                                                   threats of terrorism, crime, public health issues,
                                                   and disasters of all kinds.
                                                   Provides governance, planning, training and
                                                   exercise funding to States, territories, and local
                                                   and tribal governments to carry out initiatives to
                                                   improve interoperable emergency
                                                   communications, including communications in
                                                   collective response to natural disasters, acts of
Department of             Interoperable            terrorism, and other man-made disasters. All
 Homeland                Communications            activities proposed under the program must be                   *97.055
  Security                 Equipment               integral to interoperable emergency
                                                   communications and must be aligned with the
                                                   goals, objectives, and/or initiatives identified in
                                                   the grantee’s approved Statewide
                                                   Communication Interoperability Plan. The
                                                   Program provides the flexibility to purchase
                                                   interoperable communications equipment.
                                                   To provide funds to port areas for the protection
                                                   of critical port infrastructure from terrorism. To
                                                   assist ports enhancing maritime domain
                                                   awareness, improving risk management
                                                   capabilities to prevent, detect, respond to and
Department of
                       Port Security Grant         recover from attacks involving improvised
 Homeland                                                                                                           97.056
                            Program                explosive devices and other non-conventional
  Security
                                                   weapons, as well as training and exercises and
                                                   Transportation Worker Identification Credential
                                                   implementation. The Port Security Grant
                                                   Program also provides funding to eligible ferry
                                                   systems within eight specific priorities.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 24
 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   To create a sustainable program for the
                                                   protection of intercity bus systems and
                                                   the traveling public from terrorism. To assist
Department of                                      operators of fixed-route intercity and charter bus
                      Intercity Bus Security
 Homeland                                          services in obtaining the resources required to                  97.057
                              Grants
  Security                                         support security measures such as enhanced
                                                   planning, facility security upgrades, exercises,
                                                   improved communication capabilities, and
                                                   vehicle and driver protection.
                                                   To explore commercially viable options to
                         Operation Safe            enhance cargo security, including business
Department of                                      processes and technology prototypes, which
                           Commerce
 Homeland                                          support containerized cargo supply chain                         97.058
                          Cooperative
  Security                                         security management while facilitating the flow
                       Agreement Program
                                                   of trade.
                                           In FY 2009, the focus is on the adoption and
                                           implementation of the Transportation
                                           Security Administration's voluntary security
                                           action items for transporting Tier I Security
Department of                              Sensitive materials; development of plans to
                         Truck Security
 Homeland                                  improve effectiveness of transportation                                  97.059
                            Program
  Security                                 and distribution of supplies and commodities
                                           during catastrophic events; and the
                                           development of a system for DHS to monitor,
                                           collect, and analyze tractor trailer tracking
                                           information.
                       Homeland Security   To foster and identify novel uses of existing
                          Information      'state-of-the-art' information technology that will
Department of
                      Technology Research, remove barriers and/or improve information
 Homeland                                  sharing and integration of State and local public                        97.066
                       Testing, Evaluation
  Security                                 safety interoperability communications.
                       and Demonstration
                            Program
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 25 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   Establishment of a coordinated, university-based
                                                   system to enhance the Nation's homeland
                                                   security. The DHS Centers are envisioned to be
                                                   an integral and critical component of the new
                                                   homeland security complex that will provide the
                                                   Nation with a robust, dedicated and enduring
                                                   capability that will enhance our ability to
                                                   anticipate, prevent, respond to, and recover from
Department of                                      terrorist attacks. These Centers will also provide
                      Centers for Homeland
 Homeland                                          a locus to attract and retain the Nation's best and              97.061
                            Security
  Security                                         brightest academic scholars in pursuit of
                                                   homeland security related disciplines. The DHS
                                                   Centers will complement other programs within
                                                   the Department (including the Homeland
                                                   Security Advanced Research Projects Agency)
                                                   and in other Federal agencies that fund projects-
                                                   focused research aimed at the development and
                                                   deployment of specific homeland security
                                                   technologies and capabilities.
                                                   The objectives of this program are: (1) to
                                                   increase the intellectual capacity, skills
                                                   and talents, especially those of U.S. citizens in
                                                   areas of relevance to homeland security; (2) to
                                                   attract undergraduate and graduate students to
                                                   obtain advanced degrees in disciplines of
Department of         Scholars and Fellows,
                                                   importance to homeland security; (3) to provide
 Homeland               and Educational                                                                             97.062
                                                   advanced professional and research development
  Security                 Programs
                                                   opportunities for fellows, scholars and faculty in
                                                   targeted areas; and (4) to increase a diverse and
                                                   highly talented cadre of new and emerging
                                                   science and technology expertise working in
                                                   areas of importance and need to homeland
                                                   security.
                                                   To fund research and technology development in
Department of          Homeland Security
                                                   support of Homeland Security.
 Homeland              Advanced Research                                                                            97.065
  Security              Projects Agency
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs

                                                            Page 26
 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   To enhance the ability of State, local and tribal
                                                   governments to prepare, prevent, respond to, and
Department of                                      recover from terrorist attacks and other disasters.
                       Homeland Security           The Homeland Security Grant Program is the
 Homeland                                                                                                           97.067
                        Grant Program              primary funding mechanism for building and
  Security
                                                   sustaining national preparedness capabilities.

                                                   To support eligible organizations in designing,
                                                   developing, and delivering homeland security
                                                   preparedness training to first responders and/or
Department of                                      citizens. The Homeland Security National
                      Competitive Training
 Homeland                                          Training Program supports objectives delineated                 *97.068
                           Grants
  Security                                         in a series of post 9/11 laws, strategy documents,
                                                   plans, and Homeland Security Presidential
                                                   Directives, including the National
                                                   Preparedness Guidelines.
                                                   To increase local involvement in, and ownership
Department of                                      of, management of, the development
                      Map Modernization
 Homeland                                          and maintenance of flood hazard maps produced                   *97.070
                      Management Support
  Security                                         for the National Flood Insurance Program.
                                                   The Metropolitan Medical Response System
                                                   program provides funding to designated
                                                   localities to assist in maintaining and updating
                                                   plans, delivering training, purchasing equipment
Department of                                      and pharmaceuticals, and conducting exercises.
                      Metropolitan Medical
 Homeland                                          The mission of the Metropolitan Medical                         *97.071
                       Response System
  Security                                         Response System is to enhance local medical
                                                   incident management's ability to coordinate and
                                                   respond to a mass casualty event during the
                                                   crucial first hours, until significant external
                                                   resources arrive and become operational.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 27 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   The National Explosives Detection Canine
                                                   Program exists to deter and detect
                                                   the introduction of explosives devices into the
                                                   transportation system. Explosives detection
                                                   canine teams are a proven reliable resource to
Department of          National Explosives         detect explosives and are a key component in a
 Homeland               Detection Canine           balanced counter-sabotage program. The use of                    97.072
  Security               Team Program              highly trained explosives detection canine teams
                                                   is also a proven deterrent to terrorism directed
                                                   towards transportation systems and provides a
                                                   timely and mobile response to support facilities,
                                                   rail stations, airports, passenger terminals,
                                                   seaports and surface carriers.
                                                   The Law Enforcement Terrorism Prevention
                                                   Program seeks to provide law enforcement
                                                   communities with enhanced capabilities for
                                                   detecting, deterring, disrupting, and preventing
                                                   acts of terrorism. The Law Enforcement
                                                   Terrorism Prevention Program is focusing on
Department of          Law Enforcement
                                                   providing resources to law enforcement and
 Homeland             Terrorism Prevention                                                                          97.074
                                                   public safety communities (working with their
  Security                  Program
                                                   private partners) to support critical terrorism
                                                   prevention activities such as
                                                   establishing/enhancing fusion centers
                                                   and collaborating with non-law enforcement
                                                   partners, other government agencies, and
                                                   the private sector.
                                                   To create sustainable programs for the protection
                                                   of critical bus, rail, and ferry system
Department of            Rail and Transit
                                                   infrastructure from terrorism, with special
 Homeland                Security Grant                                                                             97.075
                                                   emphasis on the use of explosives and non-
  Security                  Program
                                                   conventional threats which would result in major
                                                   loss of life and severe disruption.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 28 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   To provide funding and/or property for the
                       Homeland Security
                                                   purpose of conducting research,
                        Research Testing,
Department of                                      testing, evaluation, and demonstration of
                         Evaluation, and
 Homeland                                          homeland security technologies related to                        97.077
                        Demonstration of
  Security                                         nuclear detection intended to identify, counter,
                      Technologies Related
                                                   or respond to terrorist threats.
                      to Nuclear Detection
                                                   The Buffer Zone Protection Program provides
                                                   funding for the planning, equipment, and
Department of                                      management of protective actions, to support the
                          Buffer Zone
 Homeland                                          objective of protecting, securing, and reducing                  97.078
                       Protection Program
  Security                                         vulnerabilities of identified critical infrastructure
                                                   and key resource sites.
                                                   To disseminate public alerts and warnings by
                                                   providing Public Alert Radios to eligible
                                                   schools. Public alerts and warnings can be
Department of                                      disseminated nationwide, regionally, or locally.
                       Public Alert Radios         This program will: a) expand delivery of public
 Homeland                                                                                                          *97.079
                          for Schools              alert services to designated schools; and b)
  Security
                                                   enhance and strengthen the capability of
                                                   designated schools to provide alert and warning
                                                   information directly to students and the public.

                                             To provide financial or nonfinancial support to
                                             explore the feasibility and viability
                     Information Analysis of commercially available protective measure
                         Infrastructure      technology to nonfederal entities, through
Department of
                     Protection and Critical pilot or demonstration projects, or as directed by
 Homeland                                                                                                           97.080
                         Infrastructure      Congress, to support monitoring of
  Security
                        Monitoring and       critical infrastructure, initiatives, programs and
                           Protection        projects.


Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 29 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   The primary objective of the Federal Law
                                                   Enforcement Training Center is to provide
Department of          Law Enforcement             training to Federal law enforcement agencies;
 Homeland                Training and              however, advanced and specialized training is                    97.081
  Security            Technical Assistance         also provided to state, local, tribal, and campus
                                                   law enforcement agencies.
                                                   The purpose of this funding opportunity is to
                                                   support the Central U.S. Earthquake
                                                   Consortium, Northeast States Emergency
                                                   Consortium, Western States Seismic Policy
                                                   Council, and the Cascadia Region Earthquake
Department of                                      Workshop in: delivering education and training
                            Earthquake
 Homeland                                          to community and State officials; developing                    *97.082
                            Consortium
  Security                                         seismic policies, sharing information, and
                                                   promoting programs to reduce earthquake-
                                                   related losses; reducing the loss of life, injuries,
                                                   property losses, and social and economic
                                                   disruption that results from all hazards.
                                                   To increase the number of firefighters in local
                                                   communities and to help them meet industry
Department of         Staffing for Adequate        minimum standards and attain 24/7 staffing for
 Homeland              Fire and Emergency          adequate protection against fire and fire-related                97.083
  Security                   Response              hazards, and fulfill related roles associated with
                                                   fire departments.
                                                   To provide funding for outreach, education, and
                                                   technical assistance in order to raise public
                       Homeland Security           awareness of homeland security issues and to
Department of
                      Outreach, Education,         work with communities to help them forge
 Homeland                                                                                                           97.086
                         and Technical             partnerships across agencies and disciplines to
  Security
                           Assistance              address preparedness and response.

                                                   To provide funding and/or property for the
Department of
                       Homeland Security           conduct of operations and other related activities
 Homeland                                                                                                           97.091
                       Biowatch Program            intended to identify, counter, or respond to
  Security
                                                   biological and chemical threats.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 30

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                           To assist States, tribal governments, and
                                           communities to reduce or eliminate the long-
Department of                              term risk of flood damage to structures insured
                        Repetitive Flood
 Homeland                                  under the NFIP that have had one or more claims                        *97.092
                             Claims
  Security                                 for flood damages through mitigation activities
                                           that are in the best interest of the National Flood
                                           Insurance Fund.
                                           Provide information to the fire and emergency
                          Fire Service     services community, emergency managers,
Department of
                      Hazardous Materials and other local government officials concerning
 Homeland                                                                                                          *97.093
                       Preparedness and    issues related to the planning, mitigation,
  Security
                           Response        prevention, and response to hazardous materials
                                           incidents which includes acts of terrorism.
                                           To assist State and local fire marshals to
                                           implement prevention programs and
                                           conduct other networking activities with their
Department of        Prevention Advocacy counterparts. Provide financial assistance to
 Homeland             Resources and Data the Prevention Advocacy Resources and Data                                 97.094
  Security            Exchange Program     Exchange regional networks to support exchange
                                           and sharing of fire prevention/protection related
                                           materials, risk analysis, hazard reduction, best
                                           practices, trend analysis, and related information.
                                           Provide financial assistance to reduce fire deaths
Department of                              and injuries among children under the age of 14
 Homeland            Safe Kids Worldwide by educating them in fire safety awareness, fire                           97.095
  Security                                 safety techniques, and providing fire safety
                                           equipment.
                                           To provide direct assistance to State, Regional,
                                           local and tribal jurisdictions to improve their
Department of             Commercial
                                           ability to prevent, protect against, respond to,
 Homeland              Equipment Direct                                                                             97.096
                                           and recover from various types of emergency
  Security            Assistance Program
                                           situations and major events, including threats or
                                           acts of terrorism.
Department of                              Support the national exchange and sharing of
                     Training Resource and fire/emergency service training related materials
 Homeland                                                                                                           97.097
                        Data Exchange      and information.
  Security
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 31

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                            To distribute technology solutions to State
                                            government and Non-profit Organizations
                                            throughout the country prior to a major event,
Department of
                       Disaster Donations   through the Aidmatrix Foundation/FEMA. This
 Homeland                                                                                                          *97.098
                     Management Program will allow end-users to incorporate technology
  Security
                                            solutions into their planning, increasing their
                                            capacity to respond quickly and effectively once
                                            a disaster occurs.
                                            To support residential fire safety initiatives such
                                            as: promoting public awareness of fire protection
                                            systems e.g., smoke alarms, and automatic
Department of            Residential Fire   sprinklers; supporting consumer awareness of
 Homeland                 Safety & Fire     residential fire sprinkler systems through                              97.099
  Security            Sprinkler Initiatives provision of educational materials, public service
                                            announcement kits, and newsletters/media
                                            releases to the public, home building, and fire
                                            protection industry.
                     Firefighter/Emergency To support firefighter/emergency medical
                        Medical Services    service health and safety issues, technology
Department of
                     Outreach, Technology transfer, technical assistance, and information
 Homeland                                                                                                           97.105
                     Transfer, Information dissemination/outreach efforts.
  Security
                       Dissemination, and
                      Technical Assistance
                                            To build capabilities to prevent, deter, respond
                                            to, and recover from incidents of terrorism at the
                                            State and local levels through planning,
                                            equipment, training, and exercise activities and
Department of
                         State Homeland     support the implementation of State homeland
 Homeland                                                                                                          *97.073
                        Security Program    security strategies and key elements of the
  Security
                                            national preparedness architecture, including the
                                            National Preparedness Goal, the National
                                            Incident Management System and the National
                                            Response Plan.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 32 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   The overall goal of the Securing the Cities
                                                   initiative is to prevent a Radiological/Nuclear
Department of                                      attack on high risk urban areas by enhancing
 Homeland               Securing the Cities        regional capabilities to detect, identify, and                   97.106
  Security                                         interdict illicit radioactive materials in
                                                   and around urban areas.
                                                   To support the development, integration, and
                                                   deployment of incident management systems.
                                                   This includes operational, technical and
Department of                                      programmatic standards in support of
                       National Incident
 Homeland                                          nationwide implementation of the National                        97.107
                      Management System
  Security                                         Incident Management System model; establish a
                                                   unified approach to incident management as well
                                                   as standard command and management
                                                   structures.
                                                   To provide funding and/or property for the
                       Homeland Security,          purpose of conducting research,
Department of          Research, Testing,          testing, evaluation, and demonstration of
 Homeland                Evaluation, and           homeland security technologies intended to                       97.108
  Security              Demonstration of           identify, counter, or respond to terrorist threats.
                          Technologies
                                            The goal of the Regional Catastrophic
                                            Preparedness Grant Program is to support an
Department of         Regional Catastrophic integrated planning system that provides for
 Homeland              Preparedness Grant   regional all-hazard planning for catastrophic                          *97.111
  Security                  Program         events and the development of necessary
                                            plans, protocols, and procedures to manage a
                                            catastrophic event.

                                                   To create sustainable programs for the protection
                                                   of critical bus and infrastructure from terrorism,
Department of            Rail and Transit          with special emphasis on construction projects
 Homeland                Security Grant            which address the most significant risks and can                 97.113
  Security                  Program                also be completed in a timely fashion.

Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 33 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                           To supplement and expand ongoing efforts to
                                           provide shelter, food, and supportive services for
                                           needy families and individuals. To strengthen
                                           efforts to create more effective and innovative
                     Emergency Food and
Department of                              local programs by providing supplemental
                        Shelter National
 Homeland                                  funding for them. To conduct minimum                                     97.114
                        Board Program
  Security                                 rehabilitation of existing mass shelter or mass
                            (ARRA)
                                           feeding facilities, but only to the extent
                                           necessary to make facilities safe, sanitary and
                                           bring them into compliance with local building
                                           codes.
                                           To provide financial assistance directly to fire
Department of                              departments to enhance their capabilities with
                         Assistance to
 Homeland                                  respect to fire and fire-related hazards. To                             97.115
                       Firefighters Grant
  Security                                 provide financial assistance in the construction,
                                           upgrading or rehabilitation of fire stations.
                                           To create a sustainable program for the
Department of                              protection of regulated ports from terrorism,
                      Port Security Grant
 Homeland                                  with one priority on construction projects which                         97.116
                            Program
  Security                                 address the most significant risks and can also be
                                           completed in a timely fashion.
                                           To identify solutions that facilitates emergency
Department of                Border        communications along and across the border and
 Homeland               Interoperability   ensures emergency response providers can                                 97.120
  Security           Demonstration Project communicate during natural disasters, acts of
                                           terrorism, and other man-made disasters.
                                                   Pilot evaluations of equipment and Concepts of
Department of         Radiological/Nuclear         Operations for use to address the overall risk of
 Homeland               Detection Pilot            illicit radiological/nuclear materials entering our              97.121
  Security            Evaluations Program          Nation.
                                                   This is a demonstration project that would
Department of                                      support the development of a comprehensive,
                        Bio-Preparedness
 Homeland                                          statewide system to analyze public health trends                *97.122
                         Collaboratory
  Security                                         and detect incidents that may threaten homeland
                                                   security.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 34
 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   Support the activities of the Multi-State
Department of              Multi-State             Information Sharing and Analysis Center,
 Homeland              Information Sharing         involving cyber security protections for State,                 *97.123
  Security             and Analysis Center         Tribal and local governments.

Department of                                      To provide funds to perform fire protection
 the Interior,          Indian Community           services for Tribal Governments that do not
                                                   receive fire protection support from State or                    15.031
  Bureau of               Fire Protection
Indian Affairs                                     local government.
                                                   To implement the National Fire Plan and assist
                                                   communities at risk from catastrophic wild land
                                                   fires by providing assistance in the following
                                                   areas: Provide community programs that
                                                   develop local capability including assessment
                                                   and planning, mitigation activities, and
                                                   community and homeowner education and
                                                   action; plan and implement hazardous
                                                   fuels reduction activities, including the training,
Department of          National Fire Plan -
                                                   monitoring or maintenance associated with such
 the Interior,           Wildland Urban
                                                   hazardous fuels reduction activities, on federal                 15.228
Bureau of Land        Interface Community
                                                   land, or on adjacent nonfederal land for activities
 Management              Fire Assistance
                                                   that mitigate the threat of catastrophic fire to
                                                   communities and natural resources in high risk
                                                   areas; enhance local and small business
                                                   employment opportunities for rural
                                                   communities; enhance the knowledge and fire
                                                   protection capability of rural fire districts by
                                                   providing assistance in education and training,
                                                   protective clothing and equipment purchase, and
                                                   mitigation methods on a cost share basis.
                                                   To provide specialized, terrorism/extremism
Department of                                      orientation, interdiction, investigation,
Justice, Bureau       State and Local Anti-        and prevention to state and local law
                                                                                                                    16.614
   of Justice          Terrorism Training          enforcement executives, command personnel,
  Assistance                                       intelligence officers, investigators, analytical
                                                   personnel, training directors, and prosecutors.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 35
 

 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                                   A Department of Justice and White House
                                                   initiative to support the nationwide deployment
                                                   of suspicious activity reports to 72 state and
Department of
                          Nationwide               urban area fusion centers throughout the country.
Justice, Bureau
                       Suspicious Activity         The solution addresses policy, training                             #
   of Justice
                       Reporting Initiative        (executive, supervisory, and line officer),
  Assistance
                                                   implementation (technical and operational
                                                   needs) and provision/support of tools such as the
                                                   nsi.ncirc.gov website.
                                                   The Federal Transit Administration's research
                                                   program seeks to deliver solutions that improve
Department of                                      public transportation. Its primary goals are to
Transportation,       Public Transportation        increase transit ridership, improve safety and
                                                   emergency preparedness, improve capital                          20.514
Federal Transit             Research
Administration                                     operating efficiencies, protect the environment
                                                   and promote energy independence, and provide
                                                   transit research leadership.
                                                   Connecting Communities Public Transportation
                                                   Emergency Preparedness Workshop is to
                                                   improve public agency interoperability during
                                                   incidents. The workshop is designed to foster
                                                   dialogue and planning efforts between transit
Department of                                      systems, emergency service agencies, and other
Transportation,             Connecting             emergency management partners. Connecting                           #
Federal Transit            Communities             Communities opens the line of communication
Administration                                     among agencies to ensure a streamlined,
                                                   efficient response to all levels of emergency.
                                                   Connecting Communities' content is catered to
                                                   address potential emergencies specific to the
                                                   location of the workshop.
                                                   These conferences, jointly sponsored by DHS
Department of                                      and the Department of Transportation, offer
                      Transit Chiefs’ Safety       security and safety chiefs from transit agencies a
Transportation,
                          And Security             roundtable format to discuss security and                           #
Federal Transit
                           Roundtable              opportunities to work together and share best
Administration
                                                   practices.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs

                                                            Page 36
 Department /             Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
                                            To increase State, local, territorial and Native
Department of                               American tribal effectiveness to safely and
Transportation,                             efficiently handle hazardous materials accidents
                          Interagency       and incidents; enhance implementation of the
 Pipeline and
                      Hazardous Materials Emergency Planning and Community Right-to-
  Hazardous                                                                                                         20.703
                     Public Sector Training Know Act of 1986; and encourage a
   Materials
                      and Planning Grants comprehensive approach to emergency planning
    Safety
Administration                              and training by incorporating response to
                                            transportation standards.
                                                   The Hazardous Materials Emergency
                                                   Preparedness Grant Program is intended to
                                                   provide financial and technical assistance as well
Department of
                                                   as national direction and guidance to enhance
Transportation,
                      Hazardous Materials          State, territorial, tribal, and local hazardous
 Pipeline and
                          Emergency                materials emergency planning and training. The
  Hazardous                                                                                                            #
                      Preparedness Grant           Hazardous Material Emergency Preparedness
   Materials
                           Program                 Grants Program distributes fees collected from
    Safety
                                                   shippers and carriers of hazardous materials to
Administration
                                                   emergency responders for hazmat training and to
                                                   Local Emergency Planning Committees for
                                                   hazmat planning.
Environmental                                      To assist State governments in the development
  Protection                                       and implementation of an authorized hazardous
Agency, (EPA)           Hazardous Waste            waste management program for the purpose of
Office of Solid         Management State           controlling the generation, transportation,                      66.801
  Waste and             Program Support            treatment, storage and disposal of hazardous
 Emergency                                         wastes.
  Response
                                                   The purpose of the Hazardous Waste
                                                   Management Grant Program for Tribes is to
Environmental
                                                   provide financial assistance to tribal
  Protection
                        Hazardous Waste            governments and Tribal Consortia for the
Agency, Office
                       Management Grant            development and implementation of hazardous                      66.812
of Solid Waste
                       Program for Tribes          waste programs; for building capacity to
and Emergency
                                                   improve and maintain regulatory compliance;
   Response
                                                   and for developing solutions to address
                                                   hazardous waste impacting Tribal lands.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs

                                                            Page 37
Department /              Program Title                                   Objectives                              Program
   Agency                                                                                                         Number
Environmental                                      The objective of this grant program is to assist
  Protection            Water Protection           States, territories, and possessions of the United
                                                   States with critical water infrastructure                        66.474
Agency, Office         Grants to the States
   of Water                                        protection.
                                         The objective of these grant programs are: (1)
                         Water Security
                                         for financial assistance that is awarded under the
                          Training and
                                         Safe Drinking Water Act (SDWA) Section 1433,
Environmental         Technical Assistance
                                         to improve water infrastructure security through
   Protection          and Water Security
                                         both training and technical assistance for water                           66.478
Agency, Office             Initiative
                                         utilities; and (2) for cooperative agreements that
    of Water             Contamination
                                         are awarded under the SDWA Section 1434, to
                        Warning System
                                         address the risk of intentional contamination
                             Pilots
                                         of drinking water distribution systems.
                                         To provide financial assistance to states, local
                                         agencies, and tribes for chemical accident
Environmental                            prevention activities that relate to the Risk
                  Chemical Emergency
   Protection                            Management Program under the Clean Air Act
                    Preparedness and
Agency, Office                           Section 112(r). To provide financial assistance
                  Prevention Technical                                                                              66.810
of Solid Waste                           to Tribes for chemical emergency planning, and
                   Assistance Grants
and Emergency                            community right-to-know programs which are
                        Program
   Response                              established to prevent or eliminate unreasonable
                                         risk to the health and environment of
                                         communities within the State.
                                         To protect human health and the environment
                                         while advancing U.S. national interests through
                                         international environmental collaboration. This
Environmental                            mission is supported by these strategic
                 International Financial
   Protection                            objectives: (1) reduce exposure to toxic
                   Assistance Projects
Agency, Office                           chemicals; (2) improve urban air quality; (3)
                    Sponsored by the                                                                                66.931
of International                         reduce hazardous waste and improve waste
                 Office of International
   and Tribal                            management; (4) limit global Greenhouse Gas
                   and Tribal Affairs
     Affairs                             emissions and other climate-forcing pollutants;
                                         (5) improve access to clean water; and (6) build
                                         strong environmental institutions and legal
                                         structures.
Data in this report is as of August 2, 2010. The CFDA website is subject to updates; refer to www.cfda.gov for current
information.
* Indicates programs which may include objectives, including disaster assistance, outside our use of the term “Preparedness.”
# Indicates no CFDA number identified.




                                        Compendium of Disaster Preparedness Programs 


                                                            Page 38 

Appendix A
Major Contributors to the Disaster Preparedness Compendium

                   Contributors with Identified Disaster Preparedness Programs

                   Department of Agriculture
                   Department of Commerce
                   Department of Defense
                   Department of Health and Human Services
                   Department of Homeland Security
                   Department of Justice
                   Department of Transportation
                   Environmental Protection Agency

                   Contributors with No Identified Disaster Preparedness
                   Programs

                   Architect of the Capitol
                   Department of Labor
                   Farm Credit Administration
                   Federal Reserve Board
                   National Aeronautics and Space Administration
                   Peace Corps
                   Small Business Administration
                   Special Inspector General for Iraq Reconstruction
                   Tennessee Valley Authority
                   Social Security Administration
                   Smithsonian Institution
                   United States Agency for International Development




                     Compendium of Disaster Preparedness Programs 


                                       Page 39 

Appendix B
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      FEMA Administrator
                      FEMA Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                        Compendium of Disaster Preparedness Programs 


                                          Page 40
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
